                            CLOSEOUT FOR M-95080032


who worked in
            In h ~ sletter, the complainant said he had evidence of "scientific malpractice"
inzlving NSF grants. Because he provided no details in his letter that would permit any
eva1uatio.n of his concerns, OIG contacted the complainant with a request for more
information.

       The complainant responded with a request for information about OIG's policies and
procedures. OIG wrote to the complainant and provided him with information about its
policies and procedures, and about confidential source status. In addit~on,OIG requested
information about the compla~nant'sconcerns so that ~tcould meet its obligation to investigate
issues of misconduct in science related to NSF-supported activities (45 C.F R part 689 l(f)).

       The complainant responded to OIG's request with a letter that did not contain the
requested information.                                               I



       OIG wrote to the complainant again, requesting information that would enable OIG to
evaluate the alleged issues of misconduct in science. Four months passed with no response
from the complainant. During the four months, OIG received scattered information about the
subject's complaint from other sources.

       OIG determined that the complainant had two concerns. First, the complainant alleged
that several authors had published information that perpetuated an error, an action which he
equated to misconduct in science. Second, the complainant alleged that journal editors
prevented ,:him from exposing the error when they refused to publish his letters and papers
about it. None of the information provided enabled OIG to positively identify a possible
subject with NSF support.

      NSF investigates allegations of misconduct in science involving activities funded by
NSF (45 C.F.R. part 689.1). Without more detailed information from the complainant, OIG
was unable to determine whether or not the allegations in this situation were issues of
misconduct in science according to NSF's definition. In addition, OIG was unable to
determine if any NSF supported activity pertained to the allegations and, therefore, could not
determine i-ifNSF had jurisdiction in this matter.

       This inquiry is closed and no further action will be taken.

cc: Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG


                                      Page 1 of 1
